           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        PERSONALLY IDENTIFIABLE
     INFORMATION MADE AVAILABLE
         TO THE GENERAL PUBLIC
      VIA THE DEATH MASTER FILE

      June 2008   A-06-08-18042




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      June 4, 2008                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Personally Identifiable Information Made Available to the General Public Via the Death
           Master File (A-06-08-18042)


           OBJECTIVE

           Our objective was to determine the extent to which publication of the Death Master File
           (DMF) results in a breach of personally identifiable information (PII).

           BACKGROUND

           The Office of Management and Budget (OMB) defines PII as information that can be
           used to distinguish or trace an individual’s identity, such as their name or Social
           Security number (SSN), alone, or when combined with other personal or identifying
           information linked or linkable to a specific individual, such as date and place of birth. 1 A
           heightened emphasis on PII protection has emerged as information technology and the
           Internet have made it easier to collect and disseminate this information. PII can also be
           exploited by criminals to stalk, or steal the identity of, a person or commit other crimes.

           The expanded use of the SSN as a national identifier has given rise to individuals using
           SSNs belonging to others for illegal purposes. Stolen SSNs have been used to gain
           employment, obtain benefits and services, establish credit, and hide identities to
           commit various types of crimes. Identity theft affects millions of Americans each year.
           The Federal Trade Commission estimated total identity theft losses for businesses,
           financial institutions, and consumer victims totaled over $50 billion in 2002. 2 Preventing
           breaches of PII is essential to ensuring the Government retains the public’s trust.
           Consequently, the Social Security Administration (SSA) is responsible for safeguarding
           PII in its possession. In May 2007, OMB issued a memorandum requiring that Federal


           1
               OMB Memorandum M-07-16, page 1, footnote 1, dated May 22, 2007.
           2
            FTC Releases Survey of Identity Theft in U.S. 27.3 Million Victims in Past 5 Years, Billions in Losses for
           Businesses and Consumers, http://www.ftc.gov/opa/2003/09/idtheft.shtm, Federal Trade Commission,
           Press Release, September 2003.
Page 2 - The Commissioner


agencies develop and implement a PII breach notification policy. 3 The memorandum
reemphasizes Federal agency responsibilities to appropriately safeguard PII, outlines
incident reporting and handling requirements, and identifies factors to consider in
determining when notification outside the agency should be given. The memorandum
defined a breach as follows:

          …to include the loss of control, compromise, unauthorized disclosure,
          unauthorized acquisition, unauthorized access, or any similar term
          referring to situations where persons other than authorized users and
          for an other than authorized purpose have access or potential access
          to personally identifiable information, whether physical or electronic.
                                                                        4
                 As a result of a Freedom of Information Act lawsuit, SSA maintains a
 The Death       record of reported deaths known as the DMF. The terms of the related
 Master File     consent judgment required that SSA make available to the Plaintiff, the
                 SSN, surname, and date of death of deceased numberholders. As of
June 2007, the DMF database contained detailed information on more than 82 million
numberholders. SSA provides DMF data to the Department of Commerce’s National
Technical Information Service (NTIS). NTIS, in turn, sells the DMF data to customers
we broadly categorize as follows: (1) Federal, State, and local government customers;
(2) industry customers including financial, investigative, credit reporting, and medical
research organizations; and (3) public customers, including genealogists, individuals,
etc. Customers can purchase the complete data file for $1,725 and subscribe to
monthly electronic updates for another $2,600. The electronic updates provide
subscribers with DMF additions, corrections, and deletions.

Customers use the DMF to verify identity as well as prevent fraud. By methodically
running financial, credit, payment, and other applications against the DMF, users are
better able to identify and prevent identity fraud. Further, some public customers
purchase DMF information and make it available at no cost to the general public
through the Internet.

The accuracy of death data is a highly sensitive matter for SSA. Erroneous death
entries can lead to benefit termination, cause severe financial hardship and distress to
affected individuals, and result in the publication of living individuals’ PII in the DMF.
When SSA becomes aware a death report was posted in error, SSA deletes the death
entry from the DMF. Since January 2004, SSA has provided the Office of the Inspector
General electronic files containing all updates made to the DMF. These files indicate,
from January 2004 through April 2007, SSA deleted over 44,000 numberholders’ death
entries from the DMF. We did not verify whether the 44,000 individuals were alive at
the time of our audit. However, SSA records indicated 20,623 of these individuals
received SSA benefit payments in May 2007. The fact SSA paid benefits to individuals


3
    OMB M-07-16, supra.
4
    Perholtz v. Ross, Civ. No. 78-2385 and 78-2386 (D.D.C. - 1980).
Page 3 - The Commissioner


after deleting their death entries indicates SSA determined the individuals were alive.
Our review focused on these 20,623 individuals. (Additional background information is
provided in Appendix B.)

RESULTS OF REVIEW
Since January 2004, SSA’s publication of the DMF has resulted in the breach of PII for
more than 20,000 living individuals erroneously listed as deceased on the DMF. SSA
made these individuals’ SSNs; first, middle, and last names; dates of birth and death;
and State and zip codes of last known residences available to users of the DMF before
learning they were not actually deceased. SSA attempted to retract these disclosures
by deleting the individuals’ information from the DMF. While these deletion transactions
prevented the PII from being included in subsequent versions of the DMF, the deletions
had no effect on the PII previously made available to DMF subscribers. In some
instances, these individuals’ PII remained available at the time of our audit for free
viewing on the Internet. Public disclosure of living individuals’ PII increases the
opportunity for identity theft and subjects SSA to criticism from the affected individuals,
the public and Congress and could subject SSA to legal action. 5

PUBLICATION OF THE DMF RESULTS IN PII BREACHES

SSA inadvertently exposed the PII of thousands of living individuals through publication
of the DMF. SSA publishes deceased numberholders’ personal information in the
DMF. From January 2004 through April 2007, SSA processed transactions to delete
erroneous death entries appearing on more than 44,000 numberholders’ SSA records.
However, in many cases, these deletion transactions did not occur until after the
individual’s PII was already exposed on the DMF. As of May 2007, SSA paid benefits
to 20,623 of these numberholders, indicating SSA’s acknowledgment the
numberholders were alive.

Through review of available data, we identified both the death entry addition and
deletion dates for 12,187 deletion transactions involving the 20,623 individuals in
                        6
current payment status. In 90 percent of the cases where these data were available,
SSA deleted these individuals’ erroneous death entries within 1 year of input.




5
    5 U.S.C. § 552a(g)(1)(D).
6
 The remaining death entry addition dates were not recorded on available data files. We believed, but did
not verify, this occurred either because the death entry was recorded before we began receiving monthly
DMF transaction files or SSA processed the deletion transaction after, but in the same month as, the
death entry.
Page 4 - The Commissioner


                                Number of Months Between Input and
                                 Deletion of Erroneous Death Entry




                                            1-3
                                      9,175 Transactions
                                             (75%)




                                                                      4-12
                                                                1,787 Transactions
                                          12 or More                   (15%)
                                       1,225 Transactions
                                              (10%)



SSA’s policies and procedures openly acknowledge the occurrence of death reporting
errors and state, “Occasionally, living individuals are erroneously included in the DMF
                                                                  7
(e.g., due to inaccurate death reports or inaccurate data input).” Because SSA
realizes it cannot guarantee the accuracy of information published in the DMF, it
formally disclaims the accuracy of the DMF contents 8 and advises DMF
customers/subscribers that not all information contained within is verified.

Because of the importance placed on privacy in the Social Security program, the first
regulation adopted by the Social Security Board in June 1937 was Regulation
Number 1, 9 which, to date, governs the privacy and disclosure of Social Security
records. The Social Security Board found that the public interest required that
confidential information in its possession, pertaining to any person, be preserved.
Although SSA is aware it erroneously includes the PII of living individuals in the DMF, it
continues to make the information available to the public. These actions not only
appear to be contrary to Regulation 1, they also could cause the public to lose
confidence in SSA’s ability to protect sensitive information and subject SSA to civil
litigation.




7
 SSA, POMS GN 03316.095.A, Disclosure Without Consent to Recipients of the Death Master File (DMF)
When Erroneous Death is Included on the DMF.
8
    Id.
9
    20 C.F.R. § 401 et seq.
Page 5 - The Commissioner


DMF Deletion Transactions Did Not Remove PII from Public Domain

SSA’s efforts to delete erroneous death entries from the DMF did not effectively
mitigate the exposure of living individuals’ PII. We randomly selected 250 instances
where SSA deleted living individuals’ death entries from the DMF. In September 2007,
4 to 43 months after SSA deleted the death entries, we searched at least one of the
following three Internet sites that make DMF information available to the public at no
charge to determine whether sampled individuals’ PII remained accessible on the
website.

•    Rootsweb.com’s Social Security Death Index at http://ssdi.rootsweb.com/

•    Genealogy.com’s Social Security Death Index at
     http://www.genealogy.com/genealogy/gen_ssdisearch.html

•    Familysearch.org’s Social Security Death Index at http://www.familysearch.org/ssdi/

Our review revealed that months 10 after SSA deleted the information from the DMF, the
PII of 71 (28 percent) of the sampled living numberholders remained available for
viewing on at least one of the Internet web sites. SSA action to remove erroneous
death entries from the DMF did not prevent continued breaches of affected individuals’
PII.

SSA staff stated that all purchasers of the DMF who continually use its data are
advised, on the NTIS website, that it is mandatory that they keep their copy of the DMF
up to date. SSA requires that they also purchase a subscription to the DMF updates
and apply those updates. However, neither NTIS nor SSA enforced this requirement.
SSA staff believed this oversight activity was an NTIS responsibility, particularly since
NTIS receives all the fees associated with the sale of the DMF and from the update
subscriptions. However, NTIS staff stated it provided no user oversight because the
DMF was exclusively an SSA product. As a result, DMF purchasers did not always
appear to abide by the update requirements, and the PII of living individuals remained
publicly available, even long after SSA deleted the erroneous death entries.

Breach Notification Procedures Not Implemented When PII Exposed on the DMF

SSA did not implement PII breach notification procedures after becoming aware it
erroneously published living numberholders’ PII on the DMF. Further, SSA did not
notify affected numberholders their PII was exposed on the DMF. OMB issued
guidance requiring that Federal agencies report suspected or confirmed PII breaches to




10
  On average, the PII of these numberholders could be viewed on the Internet 30 months after SSA
deleted the death entry from the DMF.
Page 6 - The Commissioner


the United States Computer Emergency Readiness Team (US-CERT) within 1 hour of
discovery/detection. 11 This policy also outlines factors agencies should consider in
determining when external breach notification should be given 12 and states

          Notification of those affected and/or the public allows those individuals
          the opportunity to take steps to help protect themselves from the
          consequences of the breach. Such notification is also consistent with
          the “openness principle” of the Privacy Act that calls for agencies to
          inform individuals about how their information is being accessed and
          used, and may help individuals mitigate the potential harms resulting
          from a breach. 13

SSA staff acknowledged the Agency does not implement any breach notification
procedures when living individuals’ personal information is erroneously published in the
DMF. SSA staff reported that, relative to the total number of deceased individuals on
the DMF (currently over 82.5 million) 20,000 DMF reporting errors represent an error
rate of approximately .03 percent. SSA staff stated the DMF deletions discussed in the
report occurred from January 2004 through April 2007; however, the OMB PII breach
notification guidelines were not issued until May 2007.

We believe SSA’s current practice is inconsistent with OMB guidance. For example,
the OMB guidance states “[t]he magnitude of the number of affected individuals may
dictate the method(s) you choose for providing notification, but should not be the
                                                                       14
determining factor for whether an agency should provide notification.” SSA should
determine whether breach notification is warranted in accordance with the factors set
forth in OMB guidance in instances where it erroneously publishes living
numberholders’ PII in the DMF.

Detailed Personal Information Published on the DMF

SSA discloses far more detailed personal information in the DMF than required under
the original consent judgment that resulted in the creation of the DMF. Under the terms
of the agreement, SSA was to compile a list that identified deceased numberholders’
SSNs, surnames and dates of death. However, SSA expanded the information
published in the DMF to include the decedent’s date of birth, first and middle name, and
last known residential state/zip code. According to SSA, the additional information
became part of the DMF based on requests from subscribers. However, we could not
confirm this because SSA did not maintain any supporting documentation.



11
     OMB M-07-16, supra, Attachment 2 § B.1. at page 10.
12
     OMB M-07-16, supra, Attachment 3 at page 12.
13
     OMB M-07-16, supra, Attachment 3 § A.3. at page 12.
14
     OMB M-07-16, supra, Attachment 3 § B.1b. at page 14.
Page 7 - The Commissioner


In Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, OMB directs agencies to reduce the volume of PII to
the minimum necessary for the proper performance of a documented agency function,
and to reduce the use of SSNs and to explore alternatives for use of SSNs as personal
            15                        16
identifiers. The Social Security Act (Act) prohibits SSA from disclosing a person's
death for purposes other than those enumerated in the Act if SSA's only source of that
information was the State Death Match program. However, the Act allows, under
certain circumstances, for SSA to share this restricted information with Federal and
                 17
State agencies. In these cases, SSA provides death information to other government
agencies but does not publish death information in the public version of the DMF.
Further restricting the amount of detailed personal information included in the DMF
would reduce PII exposure—particularly in instances where living individuals’
information is erroneously included—while allowing for the continued legitimate use of
the valid death information.

CONCLUSION AND RECOMMENDATIONS
SSA’s publication of the DMF resulted in the erroneous disclosure of thousands of living
individuals’ PII. SSA’s attempts to mitigate these PII breaches were not always
effective in removing the PII from the public domain. SSA did not notify either
US-CERT or the affected individuals upon learning the Agency had erroneously
included living individuals’ PII in the DMF. Further, SSA discloses far more detailed
personal information in the DMF than required by the consent agreement that resulted
in the creation of the DMF. With the growing use of the Internet—and the public and
Congress’ concerns with identity theft and the disclosure of personal information—SSA
must prevent the improper disclosure of PII by ensuring the DMF does not contain the
PII of living individuals before making the information available to the general public.

Publication of the DMF involves the inherent risk living individuals’ PII will be mistakenly
breached. If SSA continues to publish the DMF with the knowledge its contents cannot
be guaranteed as accurate and contain the PII of living numberholders, we recommend
SSA:

1. Work with the Department of Commerce to implement a risk-based approach for
   distributing DMF information. For example, SSA could request that NTIS delay
   release of DMF updates to public customers by at least 1 year to give SSA time to
   correct most, if not all erroneous death entries.

2. Limit the information included in the DMF version sold to public customers to the
   absolute minimum required and explore alternatives to inclusion of the full SSN.


15
     OMB M-07-16, supra, Attachment 1 §§ B.1.a. at page 6 and B.2.a. and b at page 7.
16
     The Social Security Act § 205(r)(6), as amended, 42 U.S.C § 405(r)(6).
17
     The Social Security Act §§ 205 (r)(3)-(5), as amended, 42 U.S.C. §§ 405(r)(3)-(5).
Page 8 - The Commissioner


3. Initiate required breach notification evaluation procedures, in accordance with OMB
   guidance, upon notification that SSA mistakenly included living individuals’ PII in the
   DMF.

4. Provide appropriate notification, as determined by applying OMB guidance, to living
   individuals whose PII was released in error, and advise them to take appropriate
   steps to prevent further compromise of their personal information.

AGENCY COMMENTS
SSA agreed in general with Recommendations 1, 3, and 4, and stated it would consider
implementing Recommendation 2. SSA recognizes the undue hardship individuals may
experience when their personal information is erroneously compromised and is fully
committed to finding ways to reduce any risk of PII exposure. SSA also stated it must
balance these hardships against potential economic impact further restrictions on DMF
information could have on public and private users. Further, SSA stated it faces
several challenges to limiting the DMF information it provides. SSA stated that, in
April 2008, it convened a task force to identify options to improve the death reporting
process. SSA’s comments are included in Appendix D.

On May 14, 2008, the Office of the Chief Information Officer informed us that SSA
recently submitted a list to US-CERT identifying thousands of names erroneously
included in the DMF. In addition, SSA provided US-CERT a separate list with the
names of hundreds of individuals whose erroneous death entries were removed from
the DMF the previous week.

OIG RESPONSE

We appreciate SSA’s agreement with Recommendations 1, 3, and 4 and its
consideration to implement Recommendation 2. We encourage SSA to address these
issues as expeditiously as possible. In addition to responding to the recommendations,
SSA also provided technical comments and we incorporated these as we believed
appropriate.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
Act       Social Security Act
DMF       Death Master File
NTIS      National Technical Information Service
OMB       Office of Management and Budget
PII       Personally Identifiable Information
POMS      Program Operations Manual System
SSA       Social Security Administration
SSN       Social Security Number
U.S.C.    United States Code
US-CERT   United States Computer Emergency Readiness Team
                                                                                Appendix B

Background
As depicted below, the Social Security Administration (SSA) receives most death
reports from funeral homes or friends/relatives of the deceased. SSA considers such
first-party death reports to be verified and immediately posts them to the Death Master
File (DMF).
                               SSA SOURCES FOR DEATH REPORTS


             Friends, Relatives,
             and Funeral Homes
                   (90%)




                                         Federal and   Postal Authorities and
                                      State Agencies   Financial Institutions
                                                (5%)   (5%)



Other sources of death reports include States and other Federal agencies as well as
Postal authorities and financial institutions. SSA immediately posts non-beneficiary
information received from these sources to the DMF without verification. However, if
these reports indicate an SSA beneficiary died, SSA requires additional verification
before terminating benefits or posting the death entry to the DMF. 1 Verification of death
means that a reporter (usually someone in the person's home, a representative payee,
a nursing home, a doctor, or hospital) agrees the person is deceased and, if the date of
                                                            2
death is an issue, corroborates the reported date of death.




1
    SSA POMS, GN 02602.050A, Processing Reports of Death.
2
    SSA POMS, GN 02602.050A.2.
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed Federal laws on disclosure of personal information.

•   Reviewed Office of Management and Budget guidance on Safeguarding Against
    and Responding to the Breach of Personally Identifiable Information as well as the
    Social Security Administration’s (SSA) policies and procedures related to erroneous
    death terminations and release of personally identifiable information.

•   Interviewed SSA Systems and Operations staff to discuss procedures used to
    remove an erroneous death entry from a wage earner’s record.

•   Interviewed the Department of Commerce’s National Technical Information Service
    (NTIS) staff to discuss NTIS’ role in selling and distributing the Death Master File
    (DMF).

•   Analyzed 46,035 instances where SSA removed death entries from the DMF during
    the period January 2004 through April 2007. We identified 21,213 deletions from
    the DMF (representing 20,623 numberholders) for beneficiaries/recipients who were
    receiving benefits as of April and May 2007.

•   Analyzed time between the addition to the DMF and the deletion from the DMF for
    12,187 of 21,213 resurrection transactions (death entry addition dates were not
    recorded on available data files for the remaining 9,026 cases).

•   In September 2007, we selected a random sample of 250 of the 21,213 resurrection
    transactions. For each sampled individual, we searched free Internet web sites to
    determine if the living beneficiaries’ personal identifying information could be
    viewed.

We performed our audit from August through October 2007 at SSA’s Regional Office in
Dallas, Texas. We did not test the general or application controls of SSA systems that
generated electronic data used for this audit. Instead, we performed other validation
tests and found the data to be sufficiently reliable to meet our audit objectives. The
entity audited was the Office of the Deputy Commissioner for Operations. We
conducted this audit in accordance with generally accepted government auditing
standards.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      May 6. 2008                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Personally Identifiable Information Made
           Available to the General Public Via the Death Master File” (A-06-08-18042)-- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERSONALLY IDENTIFIABLE INFORMATION MADE AVAILABLE TO
THE GENERAL PUBLIC VIA THE DEATH MASTER FILE" (A-06-08-18042)


Thank you for the opportunity to review and comment on the draft report. We fully recognize
the undue hardship that individuals may experience when their personal information is
erroneously compromised. We are therefore fully committed to find ways to reduce any risk of
PII exposure. As we assess this issue, we strongly caution the OIG against releasing this report
publicly. We believe limited distribution would be more responsible. We recognize that this
information may already be known to some, but this report highlights the issue and could
encourage misuse.

As we strive to ensure the accuracy of the information we receive, we must also comply with our
responsibility to satisfy the Perholtz court order. The Perholtz case, a Freedom of Information
Act (FOIA) lawsuit, resulted in a consent judgment that required us to make available the full
SSN, surname, and date of death of deceased number holders, thus creating the Death Master
File (DMF). Oversight organizations and Congress later recognized the immense value of the
DMF in preventing fraud and erroneous payments, by sharing the information of deceased
individuals. As you cite in your report, identity theft costs businesses, financial institutions and
consumer victims more than $50 billion in a single year. The DMF is an extremely effective tool
that saves many public and private entities billions of dollars each year.

We have already begun in depth analysis to pinpoint the size of the PII exposure problem and the
source of erroneous data. We have found that the DMF is 99.59 percent accurate. Of 2.5 million
death reports added each year, the DMF reflects approximately 9,000 of these are erroneous
cases, an error rate of .0041, or less than one half of one percent. A nation-wide implementation
of the Electronic Death Registration (EDR) process would eliminate the vast majority of these
erroneous reports.

EDR is a fully automated data exchange that allows states to transmit death reports directly to
SSA. EDR has slowly expanded on a state by state basis over the past four years, and currently
23 states/jurisdictions participate. EDR transactions are virtually error free. Generally, it takes
about two years for a State to fully rollout the process state-wide. EDR nation-wide roll-out is
contingent on Congressional funding of the Department of Health and Human Services (HHS) so
that they in turn can fund States through a grant process. The Intelligence Reform and Terrorist
Prevention Act of 2004 transferred the funding of EDR to HHS. To date, the lack of funding has
been the main barrier to full expansion.

However, we are not waiting for the nation-wide roll-out to address this small but critical error
rate. We have been striving to close the very small but important error rate in the DMF by other
means. We know that the primary source of error in the DMF is manual inputs done in our field
offices and teleservice centers. Of an approximate 1.5 million death reports manually input,
errors result on about 7,000 inputs. Although the overall accuracy rate on these manual inputs is
still over 99.5%, we have sought ways to prevent all error. In July 2007, we implemented a


                                                D-2
computer screen alert, as a double check for our employees to ensure they are taking the proper
action. We also issued clearer instructions and conducted training sessions. We have seen a
significant reduction in error as a result of that change. We are also looking closely at several
additional systems enhancements that could potentially tighten our field office and teleservice
processes to reduce error. While we are eager to find and pursue any other methods to further
ensure accuracy, it is difficult to eliminate all error in a manual system. To reiterate, EDR would
be the most effective solution.

Recommendation 1

Work with the Department of Commerce to implement a risk-based approach for distributing
DMF information. For example, we could request that the National Technical Information
Service delay release of DMF updates to public customers by at least 1 year to give us time to
correct most, if not all erroneous death entries.

Response

We agree to explore any possible risk-based options for distributing DMF information. We also
agree, as noted in your report that we should seek ways to ensure that purchasers and users of the
DMF keep their file up to date.

While we are willing to explore options, we believe that any delay in release of the DMF will
cause significant economic hardship to public and private entities and impede their ability to
deter fraud, waste and abuse. A 2001 GAO audit noted that “timely receipt of death information
and prompt updating of financial data are key factor’s in the financial industry’s ability to
prevent fraud and identity theft involving the SSN’s of deceased individuals.” That GAO report
recommended that SSA distribute the DMF more frequently to help entities to prevent fraud and
identity theft. (See GAO 2001 audit "Observations on Improving the Distribution of Death
Information". http://www.gao.gov/new.items/d02233t.pdf.) We now release updates weekly.

Further, there have been numerous individuals who have testified before Congress regarding the
importance of the DMF. In 2001, the Financial Services Coordinating Committee, or FSCC,
testified. FSCC represents the largest and most diverse group of financial institutions in the
country, including the American Bankers Association, American Council of Life Insurers,
American Insurance Association, Investment Company Institute, and Securities Industry
Association. FSCC noted that, “A key method for preventing fraud and identity theft due to the
misuse of a SSN is to identify the fraudulent use of a deceased individual’s SSN. The linchpin of
this prevention effort is the SSA’s DMF.”
http://waysandmeans.house.gov/Legacy/socsec/107cong/11-8-01/11-8duge.htm

Also, any delay in the DMF would likely prompt organizations to request the information under
the Freedom of Information Act (FOIA). We are required to respond to FOIA requests within 20
business days.




                                                D-3
Recommendation 2

Limit the information included in the DMF version sold to public customers to the absolute
minimum required and explore alternatives to inclusion of the full SSN.

Response

We are considering limiting the information included in the DMF version sold to the public to
the absolute minimum required. We will also explore alternatives to the use of the full SSN.

We face several challenges to limiting the information we provide. First, we believe there is a
strong likelihood of litigation under FOIA if we were to reduce the amount of information
currently on the DMF. If we removed any data from the DMF, any FOIA requester could seek to
have it included again. Without valid legal basis to withhold under FOIA, we would again be
faced with the need to add the information or face litigation. Also, limiting the DMF to
minimum numbers of data elements would greatly reduce its utility for fighting identity theft and
fraud. Failure to supply the full SSN for individuals on the DMF would negate the positive cost-
saving results achieved by many public and private entities.

There are additional challenges we face with regard to finding an alternative to the SSN. First,
we are bound by a consent decree which requires us to include the full SSN. Second, the users of
the DMF rely on the SSN to match our records with theirs.

Recommendation 3

Initiate required breach notification evaluation procedures, in accordance with the Office of
Management and Budget’s (OMB) guidance, upon notification that we mistakenly included
living individuals’ PII in the DMF.

Response

This is a unique and complex issue. While we recognize the small percentage of error in the
DMF, we are concerned with the characterization of those errors as “PII breaches.” Nonetheless,
we will take a cautious approach and initiate breach notification evaluation procedures in
accordance with OMB guidance.

For many years, SSA, GAO, OIG, electronic privacy advocacy groups and other oversight
entities have fully understood that the DMF contains a small degree of error. In fact, SSA
specifically requires that a disclaimer accompany the distribution of DMF as follows, “SSA
cannot guarantee the accuracy of the DMF. Therefore, the absence of a particular person on this
file is not proof that the individual is alive. Further, in rare instances it is possible for the
records of a person who is not deceased to be included erroneously in the DMF.” To the best of
our knowledge, none of these entities had characterized the DMF errors as a PII breach prior to




                                               D-4
this audit report. To the contrary, these entities have repeatedly highlighted the importance of the
DMF as a tool to prevent fraud, abuse and billions of dollars in erroneous payments annually (see
GAO report cited in response 1 above).

In addition, to the best of our knowledge, no case of fraud or abuse has occurred as a result of
errors in the DMF. This may be largely due to the fact that living persons erroneously placed in
the DMF are reported as being deceased. Therefore, it is difficult for identity thieves to
distinguish these records from other deceased individuals in the DMF. It would also be difficult
to abuse that PII because banks, credit bureaus and other agencies would block activity on that
particular SSN, assuming the individual to be deceased. Further, when an individual notifies
SSA that our records reflect an erroneous death, we take immediate action to correct our records
and the DMF.

In April 2008, we convened a task force to identify options to further improve the death reporting
process. This task force is assessing the notification and remediation practices under OMB
guidelines. Meanwhile, we will continue to release the DMF weekly, despite the small error rate
because any delay in the release of the DMF would impede private and public organizations’
ability to prevent fraud, abuse and billions of dollars in erroneous payments.

Recommendation 4

Provide appropriate notification, as determined by applying OMB guidance, to living individuals
whose PII was released in error, and advise them to take appropriate steps to prevent further
compromise of their personal information.

Response

We agree that the Agency will apply the OMB guidance and provide notification as appropriate,
based on the OMB guidance. We currently provide notice to individuals when we make a death
status correction in our records and in the DMF.




                                                D-5
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments
In addition to those named above:

   Clara Soto, Senior Auditor

   Erica Turon, Senior Analyst

   Brennan Kraje, OIG Statistician

   Chuck Zaepfel, Information Technology Specialist

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-08-18042.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
